<html>
<title> - OVERSIGHT OF AGENCY EFFORTS TO PREVENT AND TREAT DRUG ABUSE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      OVERSIGHT OF AGENCY EFFORTS TO PREVENT AND TREAT DRUG ABUSE
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 1999

                               __________

                           Serial No. 106-94

                               __________

       Printed for the use of the Committee on Government Reform





  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-121 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Margaret Hemenway, Professional Staff Member
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel



                            C O N T E N T S
                               ----------                              
                                                                  Page
Hearing held on March 18, 1999...................................     1
Statement of:
    Autry, Joseph H., III, M.D., Deputy Administrator, Substance 
      Abuse and Mental Health Services Administration............    26
    Millstein, Richard A., Deputy Director, National Institute on 
      Drug Abuse, National Institutes of Health..................    39
    Schecter, Daniel, Acting Deputy Director for Demand-
      Reduction, Office of National Drug Control Policy..........     9
    Verdeyen, Vicki, Psychology Services Programs, Federal Bureau 
      of Prisons, U.S. Department of Justice.....................    52
Letters, statements, et cetera, submitted for the record by:
    Autry, Joseph H., III, M.D., Deputy Administrator, Substance 
      Abuse and Mental Health Services Administration:
        Information concerning FTEs..............................    75
        Prepared statement of....................................    29
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Millstein, Richard A., Deputy Director, National Institute on 
      Drug Abuse, National Institutes of Health, prepared 
      statement of...............................................    42
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................     7
    Schecter, Daniel, Acting Deputy Director for Demand-
      Reduction, Office of National Drug Control Policy:
        Information concerning use of media campaign funds.......    86
        Letter dated May 21, 1999................................    72
        Prepared statement of....................................    14
    Verdeyen, Vicki, Psychology Services Programs, Federal Bureau 
      of Prisons, U.S. Department of Justice, prepared statement 
      of.........................................................    54




      OVERSIGHT OF AGENCY EFFORTS TO PREVENT AND TREAT DRUG ABUSE

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Barr, Gilman, Shays, Ros-Lehtinen, 
Souder, LaTourette, Hutchinson, Ose, Mink, Towns, Cummings, 
Kucinich, Blagojevich, Turner, and Tierney.
    Staff present: Robert Charles, staff director; Margaret 
Hemenway, professional staff member; Amy Davenport, clerk; 
Michael Yeager, minority counsel; and Courtney Cook, minority 
staff assistant.
    Mr. Mica. I would like to call this meeting of the House 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order; we are pleased to now have with us, Mrs. 
Mink, our ranking member and other members who have joined us.
    We do want to go ahead and get started. We have a full 
schedule of witnesses. What I would like to do is start with an 
opening statement and then yield to our ranking member.
    Fist of all, I want to thank the ranking minority member, 
Mrs. Mink, for requesting and helping to facilitate today's 
hearing. She and her staff have assisted in securing the 
witnesses that we have here and worked with the majority in 
preparing for today's hearing.
    Again, this is part of, hopefully, a bipartisan effort to 
deal with a very difficult national issue. We have a wide range 
of matters to review today with a full panel to discuss a 
number of critical problems facing our Nation relating to drug 
abuse and illegal narcotics.
    As I have stated many times before, I believe we cannot 
tackle the problems of drug abuse and the concurrent social 
problems of crime and significant cost to our country without 
an approach that addresses simultaneously education, treatment, 
prevention, enforcement, interdiction, and eradication.
    Today's hearing will focus on several key elements that are 
critical to our total effort. In the past few years, the new 
majority started its national commitment to solve our growing 
drug problem.
    I believe we have renewed our efforts at education, 
prevention, and in building effective community coalitions to 
prevent drug abuse. While we have dramatically increased 
spending, any questions relating to effectiveness of programs 
and results remain.
    The administration's drug message, unfortunately, has been 
marked by ambivalence at the very best. It has supported Needle 
Exchange Programs. It has downgraded law enforcement and 
interdiction.
    It has, in my opinion, white washed the Mexican 
Government's drug and corruption problems. It has often fought 
Congress' efforts to provide proper counternarcotics equipment, 
which is so important to Columbia.
    It has also failed to come to grips with a legalization 
agenda. Meanwhile, drug use among our young people has doubled 
over the levels before this administration took office.
    In Florida, we have a heroin epidemic. In 1997, 136 
Floridians died from heroin overdoses; up from 84 in 1995. The 
proportion of our Nation's 8th graders who said they have tried 
heroin doubled between 1991 and 1996.
    The administration's answer to the heroin epidemic is not 
to destroy the crops on the ground in Columbia, which is our 
major source now of heroin. This is, in my opinion again, the 
simplest and most cost effective remedy, rather than spend more 
funds for methadone for heroin addicts.
    We will never really win the war against drugs by only 
treating the wounded. Many of whom will succumb again and again 
to their addiction and some who will not survive it at all.
    Finally, I want to say today how disappointed I am that 
another $1 million was spent on yet another study of marijuana 
for medicine. This study has resulted in disappointing news.
    The Institute of Medicine report calls for more research, 
while acknowledging that smoked marijuana should generally not 
be recommended for medical use, admitting that crude marijuana 
contains, in fact, very harmful substances.
    I am more bothered by the fact that the IOM report seems to 
be the administration's only response to the medical marijuana 
ballot initiatives, the assault on Federal Controlled 
Substances Act, and the FDA approval process for medicines 
which are deemed safe and effective.
    We also know that the potency of today's marijuana is about 
10 times greater than what we had around in the 1960's. Between 
1992 and 1997, the percentage of 6th, 7th, and 8th graders 
using marijuana tripled from 4.8 percent to 14.7 percent, 
according to a PRIDE survey.
    I look forward to hearing from NIDA on this, especially 
because of NIDA's research which has shown that marijuana 
cigarettes ``prime the brain'' for other illicit drugs. Those 
drugs often turn out to be cocaine and heroin, as well as from 
ONDCP's Dan Schecter.
    I am concerned because we are witnessing the onset of drug 
use among younger and younger children. We know from studies 
that the earlier the onset of use, the longer a drug abuse 
lasts, the more serious the consequences, and the more addicts 
we end up seeing on our streets.
    Our children are being exposed to a resurgent drug culture, 
which is much better funded and much more organized than it was 
30 years ago. Worse, in my opinion, since many of us believe 
parents are the most important factor in a child's decision to 
experiment with illegal drugs.
    Almost half the parents today expect their kids to use 
illegal drugs, and 40 percent believe they have little 
influence over a child's decision to use drugs. These are some 
pretty startling statistics.
    We have many issues to examine today. I look forward to 
hearing from our witnesses on how we can improve our Federal 
programs, how we can provide better services to our States and 
localities who are struggling with substance abuse, and the 
staggering cost on individuals, families, schools, and 
businesses.
    Hopefully, our hearing today will provide us with new 
answers, new solutions, and new hope for what I consider to be 
one of the most serious problems facing this Nation.
    Again, I am pleased with the cooperation of our ranking 
member, which has allowed us to put together this hearing today 
and address these issues.
    I am delighted at this point to yield to the ranking 
member, Mrs. Mink for as much time as she may consume.
    [The prepared statement of John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.001
    
    [GRAPHIC] [TIFF OMITTED] T3121.002
    
    Mrs. Mink. I thank you, Mr. Chairman, for yielding to me to 
make a few opening remarks. I want to especially acknowledge 
the invitation which you extended to me when I joined this 
subcommittee to take an active role in helping to put together 
a substantive discussion about any issue.
    Specifically, to help organize this particular hearing 
today. I appreciate the confidence and courtesy that you have 
extended to me. In the process of organizing this hearing, I 
learned a great deal about the whole issue.
    Looking to the goals that are posted there on the bulletin 
board, we see that what we are about to discuss today 
constitutes a very important part of the overall strategy.
    We are talking about demand reduction. We are talking 
about, in that context, education, prevention, and treatment. 
Those subject areas are going to be discussed by this panel. 
The budget request for this strategy is at $17.8 billion. About 
one-third of it is allocated for activities to reduce the 
demand.
    So, the areas that you will be covering are very, very 
important and crucial. We do not only want to hear an 
explanation of what you are doing in your program services in 
meeting the goals, but we want specifically to find out how 
effective the programs are, under your administration, and have 
been or will be with respect to the accomplishment of the goals 
that are listed in the drug strategy. The people of this 
country are very concerned about the drug problem.
    In my opinion, it is worsening. Much of the problem is 
within our own communities in terms of the cultivation of 
marijuana, and the manufacturing of methamphetamine, and other 
very serious drug substances.
    So, the efforts in terms of prevention, treatment, and 
education are very, very critical. I thank you all for coming. 
I hope that we will be able to engage in a meaningful 
discussion this afternoon on this overall subject.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Patsy T. Mink follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.003
    
    [GRAPHIC] [TIFF OMITTED] T3121.004
    
    Mr. Mica. Thank you.
    I am pleased now to recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I have no particular opening remarks. I came for the 
hearing. I appreciate folks showing up and sharing their 
thoughts with us.
    Mr. Mica. OK. Thank you.
    We will proceed with our panel this afternoon. Our panel, 
if I may introduce them, first we have Daniel Schecter, who is 
the Deputy Director for Demand-Reduction, acting in that 
position, in the Office of National Drug Control Policy.
    Mr. Richard Millstein, who is the Deputy Director of the 
National Institute on Drug Abuse. He is with the National 
Institutes of Health.
    We have Joseph H. Autry III, M.D., Deputy Administrator of 
Substance Abuse and Mental Health Services Administration. We 
have H. Westley Clark, with an M.D., J.D., and M.P.H, Director 
of the Center for Abuse Treatment, Substance and Mental Health 
Services Administration.
    We have Karol Kumpfer, Ph.D., Director of the Center for 
Substance Abuse Prevention; and Vicki Verdeyen. She has--is it 
an educational doctorate?
    Ms. Verdeyen. Yes.
    Mr. Mica. OK; good. That is a program I started but never 
finished, Psychology Services Programs, Federal Bureau of 
Prisons, with the U.S. Department of Justice.
    I would like to welcome our panelists this morning. Ladies 
and gentlemen, this is an investigations and oversight 
subcommittee of Congress. So, it is customary that we swear in 
all of our panelists.
    So, if you would please stand, and if you would raise your 
right hands.
    [Witnesses sworn.]
    Mr. Mica. They answered in the affirmative. The record will 
show that. So, pleased to have you with us. We look forward to 
your testimony this afternoon.
    Now, the rules of the game are this in this subcommittee, 
if you have a long statement, and since we have many witnesses, 
we will use the clock today. You can submit reams and reams 
full of information for the record.
    We do create a record of this hearing. I would ask that you 
try to summarize lengthy statements and try to get it into 5 
minutes so we can then get into an exchange of questions and 
discussion.
    With that, I am pleased to recognize Daniel Schecter as our 
first witness, Deputy Director for Demand-Reduction, acting in 
that position, with the ONDCP.
    You are recognized, sir.

   STATEMENT OF DANIEL SCHECTER, ACTING DEPUTY DIRECTOR FOR 
    DEMAND-REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Schecter. Thank you Chairman Mica, Congresswoman Mink, 
and other members of this subcommittee. On behalf of all my 
colleagues, I greatly appreciate the opportunity to have this 
hearing on demand reduction. I think we have a good story to 
tell and all of us are anxious to tell it.
    If I could begin on a personal note, I came to ONDCP in 
1989 when then the first Director, Bill Bennett, asked me to 
help him prepare what was then the first National Drug Control 
Strategy.
    As you might imagine, since that time, I have seen, of 
course, all of the strategies developed; all of the Directors 
come and go. And I have seen a great deal of progress in demand 
reduction.
    I would like to highlight for you today just a few of the 
areas that we are quite excited about and to identify what we 
think are some of the major challenges that lie ahead.
    The first point I want to make, which probably almost goes 
without saying, is that demand reduction has been and will 
continue to be critical to achieving our goal of lowered drug 
use in the United States.
    It is the cornerstone of the National Drug Control Strategy 
which Director McCaffrey testified about last month. As you 
will see, the blue chart lists the five goals of that strategy. 
Certainly, three of those goals pertain to demand reduction, 
and various individuals will be referring to those in the 
course of their testimony.
    [Chart shown.]
    Mr. Schecter. Demand reduction is the cornerstone of our 
strategy because it works. There is a substantial body of 
research out there that demonstrates this. We know much more 
now than we did 10 years ago.
    I call your attention in the prevention area, to the little 
red book that NIDA has produced that identifies research-based 
prevention strategies.
    I urge every member of the subcommittee to take a look at 
it. We will certainly provide you with copies, if you do not 
have it.
    Drug treatment also works. We have a tremendous body of 
research now that shows that it is effective in reducing drug 
use, reducing crime, reducing homelessness, and reducing the 
cost burden to the American public of drug abuse.
    We know demand reduction works because over the last 15 
years or so, drug use in this country has been cut 
substantially. The 1979 household survey shows that 14.1 
percent of the population 12 and over were current, active drug 
users. That is down to 6.4 percent in the 1997 household 
survey; about a 60 percent reduction in terms of the percentage 
of the population.
    Clearly, this is a substantial achievement and demand 
reduction strategies have a lot to do with that. Our goal in 
the Strategy is to cut this by yet another 50 percent by the 
year 2000.
    Now, there are concerns, of course: teen drug use, as you 
point out Mr. Chairman, has risen through the 1990's. We are 
gratified, however, that it seems to have stabilized the last 2 
years.
    We are confident that with some of the new programs being 
brought on line, teen drug use will be driven down further in 
the years ahead. There are many reasons for this, but I will 
cite four.
    First, parents are getting more involved and civic and 
service groups are becoming energized about the drug prevention 
issue. I note the prevention through Service Civic Alliance 
that we started with HHS and other agencies, representing about 
100 million of our citizens and, of course, community 
coalitions sprouting up throughout the country.
    Second, Federal resources for demand reduction have 
increased. In the $17.8 billion fiscal year 2000 request for 
the entire drug area, there is about $6.04 billion earmarked 
for demand reduction programs; $2.47 billion for prevention; 
and $3.57 billion for treatment. Since 1996, treatment funding 
is up about 26 percent and prevention funding up by over 50 
percent.
    Third, Federal agencies are working cooperatively better 
than ever. I can speak with some authority on this; again, 
having been at ONDCP since 1989.
    I have never seen a higher or more effective degree of 
interagency cooperation. There are many ways I could illustrate 
this. Certainly, the strategy itself is probably the best 
indication of that. It is a true team effort.
    We have interagency demand reduction working groups at the 
senior policy level, working on important demand reduction 
issues. The performance measures of effectiveness [PME] was 
truly an interagency effort. Over the course of 3 months, we 
had something like 100 interagency meetings that took place to 
develop those standards. I will also note the Drug Free 
Communities Program, which is unusual in that its 
implementation is a true interagency team effort.
    That is something I do not know that I have ever seen in a 
Federal program. It is interesting that the program itself was 
created to create partnerships at the local level. We have a 
partnership at the Federal level with the Justice Department, 
HHS, and ONDCP implementing that program.
    So far, I think this team approach has really proven its 
worth. The whole is greater than the sum of its parts.
    The fourth point I would make is that some important new 
demand reduction tools are now coming on line, and they are 
starting to show results. I think over the next couple of 
years, we will succeed in further driving down rates of teen 
drug use. The first of these new tools would mention is the 
media campaign.
    I am sure there will be more about this later. This is a 
historic, unprecedented campaign, more ambitious certainly than 
anything I have seen in my 27 years of government service.
    I think it is changing the face of the drug problem in the 
U.S. and will continue to do so. We project that by the end of 
this fiscal year, by the end of September, there will have been 
14 million anti-drug messages shown in this country that would 
not otherwise have been shown to our teens; again, 14 million 
messages.
    We are exceeding the goals that we set for audience reach 
and message frequency. We are right now reaching over 95 
percent of all American teens on an average of once every day 
with an anti-drug message.
    Through the ``pro bono match'' there have been 47,000 30-
second PSAs created by other groups, not created as a part of 
this campaign, but shown free of charge.
    As a result of this campaign, we have major Hollywood 
television shows now devoting their series programs to anti-
drug themes. Home Improvement, ER, Dawson's Creek, and other 
shows.
    I just learned yesterday, that on Channel one, which is a 
public affairs program piped into American classrooms across 
the country, they are today showing a town meeting on drugs 
that was taped yesterday in Los Angeles with General McCaffrey. 
Over 7 million kids will be watching that today.
    Finally, of course I note the superb team of contractors 
that has been assembled to help the Federal Government 
implement this campaign; Fleishman Hillard, Ogilvy Mather, 
Porter Novelli--some of the best people in this business.
    A second important new tool is the Drug Free Communities 
Program. This, again, is an extremely important undertaking. 
Congress came together in 1997, in a bipartisan fashion, worked 
with ONDCP and produced what we regard as a flagship piece of 
legislation.
    The first 92 communities were awarded grants last year in 
46 States. They are now hard at work. We just completed 
technical assistance workshops around the country with about 
520 prospective new applicants coming and learning how they can 
put together a good application. We will make a second round of 
awards later this summer. The final and I think most important 
new tool, speaking of ONDCP of course--my colleagues will 
mention some other areas--is the Drug Free Prison Zones 
Demonstration Program. The $6 million came to ONDCP last year 
in the appropriations process. We provide $1.5 million to the 
Bureau of Prisons for Federal correctional institutions and $4 
million to eight States to develop new, more effective, 
innovative ways of keeping drugs out of prisons.
    This, of course, is a tremendous problem in jails and 
prisons throughout the country. These funds are being used to 
put ion scanners on-line to scan people coming into the prisons 
for drugs, to train staff, for drug testing of inmates, and a 
range of other purposes.
    Let me mention just a couple of things about the IOM study. 
Mr. Chairman, you raised it in your opening statement. This was 
indeed released yesterday. We asked the IOM to do this study 
back in late 1997.
    The reason we asked them to do it was because, at that 
time, we were in the midst of a series of State referenda which 
were using the ballot box to make medical policy. We thought 
that was a bad idea and said so.
    To try to refocus the discussion around this issue back 
onto science where it belongs, we asked the National Academy of 
Sciences; Institute of Medicine to assemble a blue ribbon team 
to submit all of the available research on marijuana to the 
highest possible standards, and then draw some conclusions.
    They did, we think, a pretty good job. The study is 
rigorous. They looked only at peer reviewed literature. They 
have a distinguished advisory panel.
    The first point I would make is--you do not always get 
these points in reading the news accounts about this study--
they distinguished clearly between the cannabinoid compounds in 
marijuana and smoked marijuana.
    Concerning the former, they said, yes, there is definitely 
some evidence that for certain conditions, some of these 
compounds show promise of alleviating certain symptoms.
    With regard to smoked marijuana, they were quite 
discouraging about its potential as ever being any kind of 
useful medication. In fact, they said there is little future 
for smoked marijuana as medicine.
    I would think this would come as bad news for all of those 
who pushed these State referenda. Finally, they suggest that it 
might be useful to conduct some clinical trials to develop a 
more rapid delivery system, including some limited clinical 
trials of smoked marijuana, but again not for the purpose of 
proving marijuana is medicine, but to gather important data 
under very short-term, highly controlled conditions that could 
be used to develop more rapid and effective delivery systems 
for the cannabinoid compounds, not for smoked marijuana itself.
    Finally, I'd like to identify some future challenges, 
things which we are eager to work on with the Congress in the 
months ahead and that we think are very important to the demand 
reduction effort.
    One is we have got to close the treatment gap. We have got 
to do a better job providing effective treatment to those who 
need it. Is that my buzzer or your buzzer?
    Mr. Mica. Your buzzer went off some time ago. You can wrap 
that up.
    Mr. Schecter. I am almost done. We suggest that taking a 
look at parity legislation might be helpful in this regard. So 
many people right now are going into the publicly funded 
treatment system who, quite honestly, probably could have been 
taken care of by private health insurance, if it were 
available.
    Drug Free Schools Reauthorization is another important 
challenge coming up. The administration is making some 
proposals to try to tighten up that program and try to focus it 
better on the programs that research shows are going to be 
effective in reducing drug use.
    Finally, better integration of drug treatment in the 
criminal justice system. There is a proposal for a Drug 
Intervention Program at the Justice Department, which we think 
is very important. Of course, Bureau of Prisons will have more 
to say on that later.
    Again, I apologize for taking so much time. We look forward 
to working with the Congress in all of these areas.
    [The prepared statement of Mr. Schecter follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.005
    
    [GRAPHIC] [TIFF OMITTED] T3121.006
    
    [GRAPHIC] [TIFF OMITTED] T3121.007
    
    [GRAPHIC] [TIFF OMITTED] T3121.008
    
    [GRAPHIC] [TIFF OMITTED] T3121.009
    
    [GRAPHIC] [TIFF OMITTED] T3121.010
    
    [GRAPHIC] [TIFF OMITTED] T3121.011
    
    [GRAPHIC] [TIFF OMITTED] T3121.012
    
    [GRAPHIC] [TIFF OMITTED] T3121.013
    
    [GRAPHIC] [TIFF OMITTED] T3121.014
    
    [GRAPHIC] [TIFF OMITTED] T3121.015
    
    [GRAPHIC] [TIFF OMITTED] T3121.016
    
    Mr. Mica. Thank you. I understand we have two witnesses who 
will not be giving opening statements.
    So, what we will do now is hear from Dr. Joseph Autry, 
Deputy Administrator of the Substance Abuse and Mental Health 
Services Administration.
    There will be another buzzer in about 4 minutes. You can go 
about 2 minutes after that, Dr. Autry. Then we will recess for 
a vote and come back and hear from the others.
    Mr. Schecter. Mr. Chairman.
    Mr. Mica. Yes.
    Mr. Schecter. I forgot to mention that I do have a 
statement for the record I would like submitted.
    Mr. Mica. Without objection, that will be made a part of 
the record.
    You are recognized, Dr. Autry.

 STATEMENT OF JOSEPH H. AUTRY III, M.D., DEPUTY ADMINISTRATOR, 
   SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

    Dr. Autry. Let me start by thanking the subcommittee and 
you, Mr. Chairman, and Congresswoman Mink. We really appreciate 
this opportunity of coming before you.
    I am accompanied today by Dr. Westley Clark, whom you 
mentioned earlier heads our Substance Abuse Treatment Program; 
and Dr. Karol Kumpfer, who heads our Substance Abuse Prevention 
Program.
    Although they are not making presentations today, they are 
available to answer questions. We felt, in the interest of 
trying to get the fullest possible information to the 
subcommittee, that it was best to have the people who deal with 
this on a day-to-day basis with us.
    I would like to submit my testimony for the record.
    Mr. Mica. Without objection, that will be made a part of 
the record.
    Dr. Autry. I also want to apologize that Dr. Nelba Chavez, 
who is the Administrator, cannot be here today. This is a 
subcommittee before whom she was very much looking forward to 
testifying.
    She is unfortunately involved in other activities that she 
can do and I cannot. So, that is why I am here. Let me just say 
that we concur with what Dan Schecter has said.
    Our mission focuses primarily on goals 1 and 3, which are 
educating America's youth to reject illegal drugs, alcohol, and 
tobacco, and reduce health and social costs to the public of 
illegal drug use.
    I, like Dan, have been around a long time. We were debating 
a little bit earlier which one of us had been here the longest. 
Despite the fact that I am the grayest, I think he actually 
beats me by a little bit.
    I have never seen a drug control strategy or any other 
major Federal program that has the degree of collaboration, 
coordination, development, implementation, and insured 
responsibility.
    I think I can say that without exception in all of my years 
of service here. We are all aware, as you have said in your 
opening statement, of the devastation of substance abuse; not 
only on individuals, families, and communities, but how it also 
dovetails with other social problems, such as unintended 
pregnancy, HIV/AIDS, crime, welfare, violence, school dropout, 
suicide, homelessness, and injuries.
    It is clearly one of our most pressing public health 
problems. We did a recent survey of American adults and found 
that 56 percent of them listed drugs as the top priority that 
was facing their American children.
    Crime was second at 24 percent. This is a relationship that 
is well-known to this subcommittee and I will not go into it in 
my verbal testimony. We also know that prisons and punishment 
are not sufficient in and of their own right to deal with the 
problem of substance abuse in this country.
    It takes, prevention, intervention, and education to 
augment those efforts. We concur with this subcommittee that it 
takes a comprehensive approach that cuts across all of the 
goals of the strategy in order to make a dent in the substance 
abuse problems that face our Nation.
    I would like to highlight a couple of programs that we fund 
in SAMHSA to show you how we actually put this kind of 
information to the test. We have programs that are focused more 
on a comprehensive, coordinated, community approach that 
address family, school, and mental health problems that may 
lead to substance abuse and other destructive behaviors.
    We know many times in adolescence that there are mental 
health problems that develop prior to substance abuse problems. 
We have the opportunity of intervening early and heading off 
the substance abuse problems that may develop.
    We also know that there are tremendous gaps in our States 
in terms of both prevention and treatment needs. One of our 
programs is the State incentive--Grant Program in which we fund 
19 States, through the Governor's Office, to provide a 
comprehensive, integrated approach identifying, and filling 
gaps, and leveraging resources to address the prevention needs.
    We work collaboratively while colleagues at the Department 
of Education, Department of Justice, Bureau of Prisons, 
Department of Transportation, Office of National Drug Control 
Policy, HUD, and others in helping them implement a range of 
programs.
    We have six regional centers that provide technical 
assistance to a range of programs that cut across the Federal 
and State programs. You mentioned earlier your concern about 
the devastation on families.
    We have a specific initiative that focuses on strengthening 
families and teaching better parenting skills; teaching parents 
how they can help their kids, not only say no, but say no thank 
you; that is not for me. It interferes with my future that is 
too bright to have it clouded by the drugs that you are trying 
to get me to use.
    We have also worked with the National Media Campaign. I 
will just highlight one thing that has happened as a result of 
the campaign that Dan mentioned. Since this campaign went into 
effect, we have increased our National Clearinghouse Hotline to 
a 7-day operation, 24 hours a day.
    We have received approximately 2,000 phone calls a day 
since the media campaign has been implemented. We have 
distributed over 636,000 copies of Keeping Youth Drug Free, 
which is a guide to help parents learn how to talk with their 
kids. We put a copy of that in your package for your 
information.
    I also want to talk about treatment. Dan mentioned that 
treatment is effective. That is true. We know that it does a 
whole variety of things.
    There are studies that show that people who have been 
through treatment can remain drug free or substantially reduce 
their substance abuse following treatment.
    We have people who actually go to work, who pay taxes, who 
actually decrease crime, who decrease their drug use and become 
the kinds of citizens that we would all like for them to be.
    They reduce their criminal activity and they reduce their 
risky sexual behavior. We are working with the National 
Institute on Corrections and the Office of Justice Programs in 
helping develop treatment and management programs for the 
dually diagnosed persons in the criminal justice system.
    We also have a Targeted Capacity Expansion Program in 
addition to our Block Grant Program. These are funds that are 
aimed at specific communities who have emerging drug problems 
or who have specific emerging needs for treatment services that 
cannot be met within the Existing Block Grant Funds.
    We are also in the process of developing new knowledge and 
implementing knowledge on effective prevention and treatment 
interventions; working with our States, mayors, town and county 
officials, the Congressional Black Caucus, and Indian Tribal 
Governments.
    We have also mounted a recent major initiative on HIV/AIDS. 
Let me close with two things. One is, you asked about how 
accountable are we?
    Every program that we implement requires not only that 
evaluation of the program for the specific grantees, but also 
for the overall program as a whole. We have GPRA measures that 
cut across our entire agency, as well as specific program 
measures.
    We have recently expanded our household survey that will be 
sampling about 70,000 households a year, including 25,000 kids 
between the ages of 12 and 17. For the first time, this will 
allow us to make State-level estimates of the drug use in this 
country, so we can better pinpoint the distribution of our 
resources and the kinds of treatment and prevention programs 
that we need to put on the ground.
    Last, you asked are we going to be able to meet the goals 
that we have set out for the Strategy? I think, quite honestly, 
given the kind of cooperation and teamwork that we have across 
the Federal Government with our colleagues in the regions, the 
States, and the communities the answer to that question is yes.
    Thank you.
    [The prepared statement of Dr. Autry follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.017
    
    [GRAPHIC] [TIFF OMITTED] T3121.018
    
    [GRAPHIC] [TIFF OMITTED] T3121.019
    
    [GRAPHIC] [TIFF OMITTED] T3121.020
    
    [GRAPHIC] [TIFF OMITTED] T3121.021
    
    [GRAPHIC] [TIFF OMITTED] T3121.022
    
    [GRAPHIC] [TIFF OMITTED] T3121.023
    
    [GRAPHIC] [TIFF OMITTED] T3121.024
    
    [GRAPHIC] [TIFF OMITTED] T3121.025
    
    [GRAPHIC] [TIFF OMITTED] T3121.026
    
    Mr. Mica. Thank you for your testimony.
    We are going to recess the subcommittee at this time. We 
will reassemble here in about 15 minutes.
    Thank you.
    [Recess.]
    Mr. Mica. The subcommittee will come to order.
    We have heard from Daniel Schecter and from Joseph Autry. 
We will now hear from Richard Millstein, Deputy Director from 
the National Institute on Drug Abuse, the National Institutes 
of Health.
    You are recognized, sir. Did you have a lengthy statement 
for the record?

 STATEMENT OF RICHARD A. MILLSTEIN, DEPUTY DIRECTOR, NATIONAL 
     INSTITUTE ON DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH

    Mr. Millstein. I do have a formal statement for the record 
that I would like to be entered.
    Mr. Mica. Without objection, that will be made a part of 
the record.
    Mr. Millstein. Thank you.
    Mr. Mica. You are recognized, sir.
    Mr. Millstein. Mr. Chairman and members of the 
subcommittee, I am pleased to share with you what science has 
shown about drug abuse, its prevention, and treatment, and how 
we can use this research information to educate the public and 
practitioners about this complex problem, through research that 
the National Institute on Drug Abuse [NITA], supports and 
conducts.
    We now know that drug abuse is a preventable behavior and 
that drug addiction is a treatable disease. We have learned 
that although initial drug use is a voluntary and therefore 
preventable behavior; drug addiction is a chronic illness and 
is characterized for many people by occasional relapse. At its 
core, the state of addiction comes about because prolonged drug 
use has modified the brain's functioning in ways that last long 
after the individual stops using drugs. These brain changes 
essentially are what make addiction and brain disease.
    The good news is that addiction is treatable, though it is 
never a simple disease to treat. As addiction affects all 
aspects of a person's life.
    An individual's treatment program must address not only the 
individual's current drug use, but help with the maintenance of 
a drug free lifestyle through a sure projected function in the 
family, at work, and in society.
    Fortunately, just as with other illnesses, drug abuse 
professionals have at their disposal an array of tools to treat 
addicted individuals. Among these are medications and promising 
science-based behavioral therapies, proven to be efficacious in 
some settings, but not yet tested on a large scale or in 
diverse patient populations. That is why we are launching the 
National Drug Abuse Clinical Trials Network.
    The Network will form partnerships between university-based 
medical and research centers and community-based treatment 
providers to test and deliver a wide array of treatments and 
real life settings, while simultaneously determining the 
conditions under which the treatments are most successfully 
adapted.
    The Network will also serve to transfer knowledge into the 
community setting. In addition, with research and practitioner 
organizations, and our Federal colleagues, including those on 
this panel, we will disseminate the research findings. Thus, 
moving science-based treatment into practice.
    The other encouraging news is that drug addiction treatment 
can be very effective. In fact, surprisingly, it works just as 
well as medical treatments for other chronic illnesses like 
asthma, hypertension, and diabetes that also have major 
medications and behavioral compliance issues.
    Treatment effectiveness has been confirmed by a number of 
studies, including one sample of 10,000 patients in terms of 
decreased drug use, reduced involvement in illicit acts, and 
preventing the spread of HIV and Hepatitis C.
    As with all medical conditions, science will lead the way 
as we develop more effective approaches to treat addiction. 
Science already has shown that there is one common area--in the 
brain where all drugs that are abused act.
    This seems to hold true for heroin, cocaine, nicotine, 
marijuana, and one of our country's most serious emerging drug 
problems, methamphetamine. We have mounted a major science-
based initiative focusing on methamphetamine public education 
and prevention campaigns, and the development of more effective 
behavioral treatments, and new medications to treat 
methamphetamine addiction and overdose.
    We have developed and disseminated widely a Community Drug 
Alert Bulletin on methamphetamine. Ultimately, we know that our 
best treatment is prevention. We also know that we must provide 
the public with the necessary tools to play an active role in 
preventing drug use in their own local communities.
    This is likely one of the reasons why NIDA is preventing 
drug use among children and adolescents. The red book that Dan 
Schecter showed you has become one of our most requested 
publications since its release last year, with over 200,000 
copies distributed.
    We also continue to support town meetings across the Nation 
to disseminate our research findings and to educate the 
American public about what science is teaching us about 
addiction.
    We also have a strong science education program to ensure 
that our Nation's youth have accurate science-based information 
to make healthy lifestyle choices. For those who have access to 
the Internet, we have placed many of our materials on NIDA's 
Home Page, which last month received 23,600 page hits a day.
    We have also set-up a Fax-on-Demand Service called NIDA 
Info-Fax which provides fact sheets on drugs and abuse that can 
be faxed, mailed, or read over the phone to a requester. Since 
we debuted this system in December 1997, we have distributed 
more than 250,000 fact sheets.
    Because addiction is such a complex and pervasive health 
issue, research is a part of a comprehensive public health 
approach. It also includes education and prevention, and 
treatment and after
care service. These are all areas addressed by the concerted 
Government effort to reduce drug use in this country, as 
outlined in the National Drug Control Strategy.
    Thank you for the opportunity to testify at this hearing.
    [The prepared statement of Mr. Millstein follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.027
    
    [GRAPHIC] [TIFF OMITTED] T3121.028
    
    [GRAPHIC] [TIFF OMITTED] T3121.029
    
    [GRAPHIC] [TIFF OMITTED] T3121.030
    
    [GRAPHIC] [TIFF OMITTED] T3121.031
    
    [GRAPHIC] [TIFF OMITTED] T3121.032
    
    [GRAPHIC] [TIFF OMITTED] T3121.033
    
    [GRAPHIC] [TIFF OMITTED] T3121.034
    
    [GRAPHIC] [TIFF OMITTED] T3121.035
    
    [GRAPHIC] [TIFF OMITTED] T3121.036
    
    Mr. Mica. Thank you for your testimony.
    I am pleased to recognize Vicki Verdeyen, Psychology 
Services Programs, Federal Bureau of Prisons, U.S. Department 
of Justice.
    Welcome and you are recognized.

  STATEMENT OF VICKI VERDEYEN, PSYCHOLOGY SERVICES PROGRAMS, 
     FEDERAL BUREAU OF PRISONS, U.S. DEPARTMENT OF JUSTICE

    Ms. Verdeyen. Thank you, Mr. Chairman and members of this 
subcommittee. I appreciate the opportunity to go over the 
Bureau of Prisons Drug Abuse Treatment Programs with you today.
    Since 1990, every inmate who has been committed to the 
Bureau of Prisons, their record has been reviewed to determine 
whether or not their instant offense involved drug or alcohol, 
whether or not the Judge recommended that they have treatment 
while they are incarcerated, and whether or not they are being 
re-committed for a violation involving drugs or alcohol.
    The folks who meet any of these elements or criteria are 
moved into our drug education course, which is a 40-hour course 
that provides them information about the psychological, social, 
and physical affects of drug abuse.
    We provide that program in all of our institutions. In 
fiscal year 1998, a little bit over 12,000 inmates went through 
that course. Since its inception in 1990, over 98,000 inmates 
have gone through our drug education course.
    Additionally, for inmates who have diagnosable substance 
abuse problems, we provide at 42 of our institutions a 
Residential Treatment Program. These programs are 6 to 12 
months in length.
    There is a minimum of 500 hours of treatment provided. 
During this time, the treatment components really try to target 
inmates' criminal thinking patterns so that we are working 
toward reducing any future criminal activity, as well as 
reducing any tendency to use drugs again.
    In fiscal year 1998, we treated a little bit over 10,000 
inmates in our Residential Programs. We also offer in all 
institutions what we call Non-Residential Treatment Programs 
for inmates who may not otherwise be eligible for the 
Residential Programs.
    These counseling services are coordinated through the 
Psychology Services Department at the institution. When an 
inmate completes our program and is being ready to be released 
back to the community, either through a half-way house, 
community corrections center, or back to supervision under U.S. 
probation, we provide that entity with a treatment plan and 
treatment summary prior to their release so that they can 
arrange treatment and support services to ease the transition 
of the inmate back to the community.
    Since the inception of our programs, we have been working 
with NIDA to evaluate their overall effectiveness. We did get 
some good news last year. In February 1998, we published the 
first interim report that indicated for inmates who complete 
our Residential Programs, and for the first 6 months they are 
in the community, they were 73 percent less likely to be re-
arrested, and 44 percent less likely to relapse into drug use.
    Additional analysis of this same data has shown us that 
inmates who go through our treatment programs, while they 
remain in the institution, also engage in significantly less 
misconduct. So, this helps us ensure safe, secure institutions 
as well.
    This concludes my formal statement. I will be happy to 
answer any questions you or other members of this subcommittee 
may have.
    [The prepared statement of Ms. Verdeyen follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.037
    
    [GRAPHIC] [TIFF OMITTED] T3121.038
    
    [GRAPHIC] [TIFF OMITTED] T3121.039
    
    [GRAPHIC] [TIFF OMITTED] T3121.040
    
    [GRAPHIC] [TIFF OMITTED] T3121.041
    
    [GRAPHIC] [TIFF OMITTED] T3121.042
    
    [GRAPHIC] [TIFF OMITTED] T3121.043
    
    [GRAPHIC] [TIFF OMITTED] T3121.044
    
    [GRAPHIC] [TIFF OMITTED] T3121.045
    
    [GRAPHIC] [TIFF OMITTED] T3121.046
    
    [GRAPHIC] [TIFF OMITTED] T3121.047
    
    Mr. Mica. Thank you. We will start some questioning. I will 
lead off. First, I want to ask Mr. Schecter with ONDCP a couple 
of questions.
    We have had the report that was released yesterday on the 
Institute of Medicine's findings on marijuana as a medicine. I 
think we have had dozens of other studies that have already 
demonstrated that smoking marijuana is dangerous and lacks any 
medical utility.
    It is also my understanding that a recent Canadian journal 
said that the United States might start clinical trials of 
medical marijuana. I think in the report there is some 
indication that might be the next step.
    Subsequently, the FDA has said that it has approved 
clinical trials. Can you tell us about that report or the 
status of what the next step might be that is anticipated?
    Mr. Schecter. Mr. Chairman, I have not seen that journal. I 
would really probably have to defer to NIDA on what their plans 
are for clinical trials.
    Mr. Mica. Does your office have a position on clinical 
trials? Are they recommending that as the next step?
    Mr. Schecter. No. I think General McCaffrey's position on 
this is that they have gone through a great deal of time and 
trouble to assemble and review the scientific evidence. They 
have presented their findings. The ball is now really in the 
court of NIH and other agencies to determine what, if any, next 
step is appropriate, given their own research priorities and 
the needs for developing this.
    Mr. Mica. So, your recommendation would be against further 
clinical studies?
    Mr. Schecter. Well, again, I would defer to HHS on that 
question.
    Mr. Mica. Mr. Millstein, do you want to comment?
    Mr. Millstein. If you are talking about the clinical 
trials, sir?
    Mr. Mica. Right.
    Mr. Millstein. That is the province of the Food and Drug 
Administration. The role of the National Institute on Drug 
Abuse specifically is by international treaty, we hear, the 
only organization that can supply marijuana for research use in 
this country. That is a rule formally held by the DEA and by 
NIDA.
    Mr. Mica. What would be your recommendation; that you want 
to go forward with that or do you have a position regarding 
clinical trials?
    Mr. Millstein. If you are speaking, sir, about the recently 
released report by the Institute of Medicine, of course, that 
has just been released yesterday and it has been received by 
the Department. It will be reviewed there. The Food and Drug 
Administration, the National Institutes of Health, and the 
Surgeon General will advise the Secretary.
    Specifically, as to NIDA's role, it is only in providing 
the marijuana after others make a determination that a study 
should be----
    Mr. Mica. So, you will not get involved in either 
recommending for or against any trials?
    Mr. Millstein. The Director of the National Institutes of 
Health might have a different role than we do. Because the 
National Institute on Drug Abuse has, as its mission, solely 
the use of dollars for drug abuse, we have no role in any so-
called medicinal or medical use of marijuana.
    Anything that would be for any particular disease entity 
would be the province of a different institute and the National 
Institutes of Health.
    Mr. Mica. Does this Substance Abuse and Mental Health 
Services Administration, Dr. Autry, have a position?
    Dr. Autry. Let me answer that for the department as a 
whole, rather than for any one of our given agencies. The 
department really has not analyzed the IOM report and come to a 
decision on that issue yet.
    This will be a high priority policy issue that we will have 
to have discussions across all of the agencies that might be 
involved in this. We will certainly keep the subcommittee 
informed on those decisions. We do not have a position at this 
point.
    Mr. Mica. Mr. Schecter, you spoke about some reports that 
indicate that we have fewer users. I guess that is primarily an 
adult group. But we have more deaths and we have more use by 
teenagers or our youth population.
    How is ONDCP trying to address the problems of the 
additional deaths and the use with our younger population?
    Mr. Schecter. Well, you raise a very good point. We have, I 
think in this country today, an increasingly two-sided drug 
problem.
    We have a situation where there are fewer individuals using 
drugs, yet at the same time, almost paradoxically, the number 
of drug-related medical emergencies has been rising.
    The number of drug-related deaths has been rising. The 
economic impact of drug abuse on American society has been 
rising, despite the drop in the number of drug users.
    Mr. Mica. And we have more people in our prison than ever 
before.
    Mr. Schecter. That is true too.
    Mr. Mica. And more there because of some drug-related 
offense.
    Mr. Schecter. The reason for this seems to be that what is 
not decreasing commensurately is the number of chronic or hard-
core drug users. Their number is difficult to gauge with 
accuracy, and we have been trying to do a better job of doing 
this with the Chicago study and so forth. The number of chronic 
users seems to be holding rather steady and, at the same time, 
aging. So, consequently you get people who are much more likely 
to be overdosing, to be developing medical problems which get 
them into hospital emergency rooms, causing crimes, and so 
forth.
    Now, the answer to this I think lies in a couple of areas. 
One is closing that treatment gap--particularly, doing a better 
job targeting the treatments to where it is needed. SAMHSA has 
a Targeted Capacity Expansion Treatment Initiative, which we 
think will be very successful in getting those hard-core users 
into treatment.
    Another way to do that is using the criminal justice system 
more effectively, because that is where so many of these 
individuals end up.
    You also mentioned the problem of young people. That is yet 
another facet of this drug situation which is becoming 
increasingly complex.
    The number of overall drug users has been going down and 
then holding steady for the last several years. Teen drug use 
has, during the 1990's, increased and now apparently is 
starting to level off.
    What you have, as you pointed out in your statement, is 
more teens now starting to get involved in some of the 
extremely dangerous drugs like heroin. So, you have the 
situation that occurred in south central Florida, in the past 
year or so, where there was a number of drug-related deaths due 
to heroin. One of the ways that we have got to deal with that 
issue over the short-run is to get the word out to these kids 
about how dangerous heroin is.
    Heroin has not really been a high visibility drug problem 
in this country for probably 20 or 30 years. That was the last 
real heroin epidemic we had.
    So, certainly the younger generation has tended to, not be 
aware of how dangerous heroin is; particularly, now that you 
have got the high-purity heroin. You do not have to inject it. 
You can take it nasally, pop it through the skin; other means 
of administration which do not appear to be so threatening as 
injection. So, we are using our media campaign to get some 
effective anti-heroin messages out there.
    Mr. Mica. Well, one of the things that concerns me is that 
this administration has spent more time talking about tobacco 
from the beginning. I think the recent statistics that I just 
heard within the last week is that we may even have an increase 
among youth, the use and probably addiction to tobacco.
    Within the last 2 weeks, I sat down with a group of young 
people, all who were committed either by court sentence to a 
drug treatment program or I think there were several in there 
who had volunteered.
    They did not have much of a choice. It was either volunteer 
or be sentenced. Two were there because of alcohol-related 
felonies, but the balance of maybe 25 were all there because of 
drug abuse.
    I asked them specifically had they seen any of the ads that 
have been put on of late, which you all have been touting and 
we financed? They all shook their heads, yes. Then I asked them 
what they thought of them.
    They all just started laughing. I asked them about the ads. 
They thought they were completely useless. They said that in 
today's media barrage and barrage of violence and other things 
that they are exposed to, that they had no impact.
    They thought they were almost a waste of money. Now, I am 
not going to spend the rest of the hearing on that. We are 
going to have a specific hearing. We have questions to you 
examining what is going on with the sizable amount of taxpayer 
dollars we are putting into that.
    I have no problem putting $1 billion every week into it, if 
we had to, to solve the problem. But we want to make sure it is 
effective. What is your response? For example, there is no 800 
number on the ads.
    Then I understand in your program where you do have an 800 
number, that you get an automated response. That you do not 
talk to an individual. Maybe you could just respond to the 
points I have raised.
    Mr. Schecter. Yes. First, let me respond to your point 
about the kids. I am not completely surprised that they had 
that reaction. The goal of the campaign is not so much to 
change the minds of kids who are already starting to get 
involved with drugs or who are already in trouble with the law.
    It is really targeted to a somewhat younger group; the kids 
who are just on the verge of that kind of activity to try to 
shift their attitudes before drug use behavior begins.
    Mr. Mica. All right. But now, go back and do another focus 
group. Thank you. The balance of the response; the 800 number.
    Mr. Schecter. I believe most of the print ads do have an 
800 number on them, except for the matching ads which may not. 
Sometimes, it is hard to distinguish which is a pro bono match 
ad and which is an ad paid for directly by the campaign.
    As far as the automated response, a part of that problem is 
we are victims of our own success. We are trying to deal with 
that to make sure that everybody does talk to an individual. 
That there is as short a wait as possible.
    Mr. Mica. Thank you. I would like to yield now to our 
ranking member, Mrs. Mink.
    Mrs. Mink. Thank you very much.
    There is considerable discussion about the youth media 
campaign and a hope and expectation that it will be effective. 
How much money actually is being spent on that program in terms 
of it being out there actually in it commercials on television, 
excluding the administrative production costs?
    Mr. Schecter. Of the $185 million appropriated for this 
past year, my recollection is the amount of money that is 
devoted to ads is something like, I could be wrong, but it is 
on the order of $157 or $158 million.
    The rest of the funding is for other types of media. It is 
a multi-media, not just an ad, campaign. We have a major 
Internet component, for example, that will be announced next 
week, which is very exciting.
    Of course, some money goes to the contractors who place the 
ads and handle the other administrative requirements, but that 
is a very, very small percentage.
    Mrs. Mink. So, most television programs and others make a 
survey or conduct a poll to see what the reach is in terms of 
the targeted population. Do you have any information as to 
whether you are reaching that age group that those ads are 
targeted to?
    Mr. Schecter. Yes, we do have tracking surveys that our 
contractors conduct.
    That is how we know and can speak with confidence that we 
are reaching at least 95 percent of the teen target audience, 
an average of about 6.7 times per week, which averages out to 
about once a day.
    Mrs. Mink. Now, if we are spending $165 million on the ad 
program, what is the value of the pro bono contributions that 
you are receiving in the form of PSA's?
    Mr. Schecter. Again, we are exceeding our projections. When 
we first began this campaign and predicated it on a dollar-for-
dollar match, we frankly had no idea whether that was going to 
happen; whether the industry would really be able to match to 
that level.
    What is happening is we are exceeding that projection--
about 107 percent matching. In other words, we are more than 
matching dollar-for-dollar. In addition to that, there is about 
another $40 million in other contributions from private 
industry that have come along as a part of this campaign.
    Now, later this summer, we will be letting a contract for a 
new corporate participation program which will vastly increase 
still further the level of corporate contributions to the 
campaign.
    Mrs. Mink. So, what is your expectation in terms of the 
outcome, in terms of reducing the young people turning to drugs 
and becoming persistent drug users?
    Mr. Schecter. There is a graph in the strategy which really 
shows what we are trying to do. It plots teen drug use.
    [Chart shown.]
    Mr. Schecter. You can see that line coming down through the 
1980's and then turning up again during the 1990's, and 
leveling out the last couple of years. Then you have got two 
other lines which are absolutely perfectly inversely 
proportionate to that line.
    In other words, as drug use is going up, the perception of 
risk is going down. The perception of social disapproval is 
going down. This is measured on Dr. Lloyd Johnston's Monitoring 
the Future survey at the University of Michigan.
    You have perception of risk going down. This campaign is 
targeting those two attitudes, trying to again shift those 
trend lines back in another direction.
    What the research shows is that when those attitudes start 
heading the other way, teen drug use, within 1 to 2 years, 
starts heading downward. That is what the campaign is trying to 
achieve.
    Mrs. Mink. Just one final question because I have a second 
round. You talked about the Drug Free Community Program and the 
partnership and how effective it is. Why is it that in the 
administration's budget or your office budget you have reduced 
the funding of that program?
    Mr. Schecter. The authorized ceiling for that program is 
$30 million for fiscal year 2000. The administration's request 
is $22 million. We would, of course, welcome discussion with 
the Congress about different funding levels.
    I think it is probably no secret that General McCaffrey 
initially proposed both to OMB and to the President a higher 
level. But $22 million is the administration's position.
    Mrs. Mink. The other aspect of that is the maximum amount 
of funding for the Community-Based Coalitions. You also have 
set very low caps in the next 3 or 4 succeeding years. What is 
the reason for that?
    Mr. Schecter. The law says that the Administrator and the 
Director of ONDCP is authorized, to award continuation grants 
in the 2nd, 3rd, 4th, and 5th years of the grants. It prohibits 
any up-front multi-year funding.
    So, the decision before the Director, first of all, was 
whether to award continuation grants. That was an open 
question. Second, if so, what would the policy be, keeping in 
mind two goals that we have and that the Congress had with this 
program.
    One goal is to support strong, healthy, vibrant coalitions 
that will be able to stand on their own feet, both financially 
and otherwise, with strong local support.
    Second, our goal is to increase the number of such 
coalitions around the country. Based on recommendations from 
the Department of Justice and after discussion with the 
Advisory Commission, this is the Presidentially-appointed 
Advisory Commission on Drug Free Communities that met back in 
November, the Director made a decision to award continuation 
grants. But he decided to reduce the amount of funding in the 
2nd and 3rd year, and commensurately increase matching to 
provide a strong incentive for communities to increase, 
broaden, and strengthen their base of local support.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentle lady. I now recognize the 
gentleman from Indiana, Mr. Souder.
    Mr. Souder. I want to say for the record that was an 
unacceptable answer. Mr. Schecter, I am not used to seeing you 
in America. We were in Mexico the last time we talked.
    I would think that those of us in Congress who worked on 
the bill, who helped put that bill together, who put that 
language in, who worked with community groups to try to get the 
processes in, would have been consulted in that process as 
well.
    We were specifically not consulted in any work there. 
Furthermore, you said you talked to them in November. Did the 
Advisory Commission know, at that point, that you were not 
going to seek additional funding, and it was not going to be 
fully funded?
    In other words, did the Commission get told that if in 
fact, the people who already had the grants and already 
submitted a plan, while I understand that it was not locked in, 
that it was going to be there?
    I do not know of very many grants that you do not assume 
that the funding is going to flow, unless something--in other 
words, that there is going to be a sea change in the middle of 
your process.
    I am not arguing that they were not told up-front that this 
is not guaranteed. But when you present a multi-year plan, and 
here is the amount of money, it is not an illogical jump to 
conclude that it is going to be a continuation, unless you do 
something wrong.
    Furthermore, you certainly do not assume that you are going 
to get the size in draconian cuts that were there. You said 
that the Advisory Commission, based on their input, that the 
Director made the decision to reduce this.
    Did they know the size of these cuts? Did they know what 
the budget was going to be? Were they given the impression that 
there would be minimal and additional groups added in the 
process? Besides, we were not consulted.
    Mr. Schecter. I take your point, sir.
    At the November meeting of the Advisory Commission, going 
back, I am looking over the minutes of Shay Bilchik--who is our 
Grants Administrator, head of the Office of Juvenile Justice 
and the Delinquency Prevention at Justice--we put into play for 
the commission's consideration a policy of a reduction of about 
25 percent in the next year.
    They discussed that and on through lunch. In fact, one 
committee member at one point said, ``Well, we will let you, 
the staff, work out the details. We could talk about this 
endlessly.''
    What they were very clear on, put in their minutes, and 
recommended to the Director, was that there be a clear policy 
of reducing the Federal share of the budget in each succeeding 
year.
    They then left to the Director his best judgment of what 
exactly those levels should be. Again, of course, they were 
aware of this proposal on the table for a 25 percent reduction 
and did not view that as out of line.
    Mr. Souder. It may put us in the position of having to make 
more clear direction, rather than leaving discretion, because 
rural groups, for example, and some urban groups who are many 
of the targets of this program do not have the flexibility to 
go out and raise the private sector match as easily as a 
suburban group would.
    I, myself, am not sure. I have a fundamental distrust of 
whether this is not a budget gimmick where the administration 
in fact comes in with a lower budget request by altering 
existing grants.
    Although I agree, it was not mandated, but the 
understanding of those groups, certainly in my District, that 
was not how they understood the process. I am not saying they 
did not jump to a conclusion, but that was not their 
understanding.
    Then putting political pressure on us to do something in 
the budget that the administration did not have the courage to 
do. It does not breed trust in the relationships when it was a 
project that was bipartisan and one that we are trying to put 
together.
    I also have a similar concern on drug free work places. You 
talked in your testimony about the Drug Free Work Place bill 
which came originally through my subcommittee that I Chaired at 
the time.
    I Chaired that bill and worked it through, but the 
President's budget, I believe, does not have any funding in it 
for drug free work places. Is that correct?
    Mr. Schecter. I believe it does. I will have to check on 
that. I believe that is in there.
    Mr. Souder. My understanding is that----
    Mr. Schecter. It should be in the Small Business 
Administration budget. It would not be in ONDCP.
    Mr. Souder. Yes, it would be in the Small Business budget 
because it was under the Small Business Committee that we 
funded that. I will double check that.
    Mr. Schecter. Let me check on that, too, sir.
    Mr. Souder. OK.
    Mr. Schecter. I will provide an answer.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.048
    
    [GRAPHIC] [TIFF OMITTED] T3121.049
    
    Mr. Souder. I wanted to follow up too on the media 
campaign. By the way, I want to say first off, I think this is 
a comprehensive campaign in prevention and treatment. I want to 
applaud you with that.
    We are here in an oversight function and I am asking 
aggressive questions. First off, I want to say to all of you, 
this is the type of thing we need. It does not mean that I do 
not have a lot of fundamental questions underneath that to fine 
tune it.
    I do have some concerns as you are hearing from a number of 
our members. I believe that if we do not get ahold of the 
medicinal use of marijuana question, all other questions are 
pretty well defeated.
    I wanted to zero in, if I could just briefly, Mr. Chairman, 
on the concern about the media campaign. On Monday, I am at the 
Education Committee, where we are working on the Elementary and 
Secondary Education Act.
    We have been going to a lot of different schools. I asked a 
group of students if they had heard about the medicinal use of 
marijuana debate. The answer was uniformly yes.
    What did they think? They uniformly thought it should be 
used for medicine. I asked them if they realized that there 
were, I think, 270 different chemicals in marijuana and it is 
just one that is in fact the critical chemical?
    Here you do not have to have marijuana to find that 
chemical. They said they had never heard that before. Now, that 
was particularly troubling.
    How can we have a media campaign, and how can we have a 
national effort that does not in fact speak to the fundamental 
challenge we are having right now in the 8th and 12th grades?
    As you all have eloquently pointed out, we are making 
headway in college students. We are going to make more with our 
drug testing and student loan criteria which every university 
is going berserk about right now, but which is putting the 
pressure on at the college level.
    We are making at least stabilization and some headway among 
adults, and 8th graders generally do not start with heroin or 
cocaine. They are starting with marijuana, tobacco, and 
alcohol.
    If they believe that marijuana is medicinal, how in the 
world are we going to win this battle? Do you not believe that 
our materials actually ought to be focused, first and foremost, 
at the primary point where the growth in the drug abuse is 
occurring? Why would that not be a part of our national media 
campaign?
    Mr. Schecter. Well, we reached very much the same 
conclusion. Right now, we are in phase II of this campaign. 
This means that it is a national campaign, but it is 
essentially using media spots that had already been created 
through the Partnership For Drug Free America--essentially off-
the-shelf ads.
    The problem with this is that the inventory of good anti-
marijuana ads targeted to the age group you just referred to--
which really is the critical age group was very, very small.
    We are having to make do with what we've got. However, we 
told PDFA that our top priority for new ad development was 
exactly those kinds of ads; ads that dealt with marijuana for 
middle school aged kids.
    We have now previewed in the last several weeks a number of 
new ads that they are developing which are absolutely superb.
    They are some of the best spots I have ever seen and that 
General McCaffrey has ever seen. Those will be coming on-line 
in the next couple of months.
    Mr. Souder. I hope we will see a focus beyond just the 
students and reach beyond that point. I want to say, first of 
all, bravo for doing that. That is the at-risk market. We need 
to see an aggressive effort there.
    Then moving to the high school market and see where we are 
going in the general public. Clearly, this advent of opening 
the door to drug legalization is a disaster in this country.
    Thank you for letting me go over my time.
    Mr. Mica. I thank the gentleman.
    I would like to recognize the gentleman from Maryland. 
Would you allow me one 30-second question? Joseph Autry, the 
Substance Abuse and Mental Health Services Administration, I 
think you put in our packet these, I guess, how much funds flow 
into each State. Is that correct?
    Dr. Autry. We developed specific State data for each one of 
the members.
    Mr. Mica. Can you provide me that information by next week, 
I want to know how many people administer this program?
    Dr. Autry. Sure, we can do that.
    Mr. Mica. I want to know how many Federal folks administer 
that program. If you would followup and get me that 
information?
    [The information referred to follows:]

    SAMHSA has approximately 26 FTEs assigned to administration 
of the Substance Abuse Prevention and Treatment Block Grant. 
This number represents all staff involved in administration of 
the grant including those responsible for providing technical 
assistance to the States.

    Mr. Mica. Thank you. I yield now to Mr. Cummings.
    Did you get one, too? I think your goodie bag is in there. 
I am pleased to recognize the gentleman who has the distinction 
of officially having 39,000 heroin addicts.
    The unofficial figures he tells me are much higher; the 
gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. That is certainly not a good thing.
    Thank you, Mr. Chairman. I want to thank you and our 
ranking member, Mrs. Mink, for having this hearing because it 
is a subject that is near and dear to me.
    First of all, let us note that most of the questions have 
been directed to you, Mr. Schecter. I have just a few. I must 
tell you, there is not a lot that I agree with my friends on 
the other side.
    One thing I am concerned about is the Drug Free Communities 
Act and this reduction of funding. The reason I say that is 
because there are so many community groups that are trying to 
fight this drug problem.
    In my area of Baltimore, it takes a lot of nerve for people 
to do what they do. Literally, their lives are threatened 
daily. I have said it before, I live in fear everyday. Every 
night when I sleep, I am in fear because I see what is 
happening in my community with regard to drugs.
    So, whenever you have a program where community groups are 
willing to band together and to stand-up to fight the drug 
element, I think we need to be doing more and not less. It 
concerns me. I wanted to ask a question of our friend from the 
Bureau of Prisons, Dr. Verdeyen. One of the things that has 
always concerned me, having practiced criminal law for 18 years 
and talking to the criminal element in the State prisons.
    It seemed as if you could get drugs just as easy in prison 
as you could get them out of prison. I could never figure that 
out. It concerns me that just this past week or two we had a 
show on local television in Baltimore where they are talking 
about trying to help people who were in prison, and still on 
drugs.
    The drug problem got worse in prison, and trying to figure 
out a way to help them was difficult. See, there is something 
wrong with that picture. I mean, maybe I am missing something.
    I thought prisons were supposed to be pretty much air-tight 
and definitely drug-tight. Then when I think about our Federal 
prisons, they are supposed to be tighter. I am wondering what 
your view is on that?
    Do we have major drug problems in our prisons? When I say 
``drug problem'' I want to be real clear. I mean, drugs coming 
into our prisons.
    Ms. Verdeyen. I have the most recent information. Actually, 
it is information for this past year on the random drug testing 
that we do on offenders in Federal prisons. Our screens came up 
as 1.1 percent of those tests were positive.
    So, while it is not air-tight, it is not a huge problem. We 
have a number of approaches to prevent drugs from coming in, 
having to do with surveillance in the visiting rooms.
    We have introduced the ion scanners in 28 of our 
institutions. That seems to be effective in deterring people 
from even trying to bring drugs into the visiting areas.
    Mr. Cummings. Maybe we need to try to do some of that in 
the State prisons. Do we have somebody here from the State 
prisons?
    Ms. Verdeyen. I believe so.
    Mr. Schecter. Sir, this is exactly the purpose of Drug Free 
Prison Zone demonstration project that I was talking about in 
my opening statement.
    Mr. Cummings. I apologize. I was in another hearing.
    Mr. Schecter. Oh, I am sorry. That is true.
    This was a $6 million appropriation that came to ONDCP last 
fiscal year. We entered into an agreement with the Justice 
Department to divide that among the Federal prisons to put ion 
scanners into some of these Federal facilities so that when 
people are trying to bring drugs into the prison, they will get 
detected.
    Then $4 million was awarded competitively to 8 States to 
implement different types of procedures and programs, including 
better training for staff on how to intercept drugs coming into 
prisons, and also to institute drug testing.
    Mr. Cummings. Did he just pass you a note that Maryland is 
one of them?
    Mr. Schecter. Maryland is one.
    Mr. Cummings. I know staff. I mean, you have got to get 
that in. I did not know that, but I am glad to know that, 
brother staff member.
    So, how long have those grants been out there?
    Mr. Schecter. They were just awarded, I think, in January.
    Mr. Cummings. January; OK, good.
    Let me ask you something. What are we doing with regard to 
sales persons of drugs? Let me just tell you. In my community, 
a part of the problem is that young men, and there are a lot of 
women, they do not use drugs but they sell them because they 
cannot find jobs, so they claim.
    When I came home last night, literally within a block of my 
house, I got home around 12 o'clock. There were about 14 or 15 
young people standing on the corner within a block of my house, 
which is right near downtown Baltimore, selling drugs.
    I am just wondering, I mean, do we aim anything at dealing 
with these sales people?
    [No response.]
    Mr. Cummings. Hello. Anybody?
    Mr. Schecter. Yes. There are a number of programs like 
that. Karol Kumpfer may have some examples from CSAP. There are 
media campaign spots that target that kind of activity. There 
are some other prevention programs.
    It is very difficult to reach these kinds of kids. What you 
are really talking about are not so much programs targeted at 
selling drugs, but programs targeted at a whole range of 
negative, high risk, and counter productive behaviors in the 
school systems.
    I might ask Karol to speak to that.
    Mr. Cummings. While you are pulling the microphone closer, 
one of the interesting things that we've seen, and heard about 
drug sales in the black communities.
    You turn on the 6 o'clock news and people, if you just 
looked at the television, you would assume that most of the 
people on drugs, using, and selling drugs are black. Well, dah. 
They are not. They are white.
    I think all of you all know that, but the picture is thrown 
out there that they are black. One of the interesting 
phenomenons that I have seen here lately is how in our suburban 
schools, where you have these majority white populations like 
90 percent to 95 percent, they are now discovering major sales 
persons in the schools with big time corporate activity selling 
drugs to our youngsters.
    So, I am not just aiming it at my street. I am also looking 
at the streets outside of my neighborhood.
    Ms. Kumpfer. One of the things that I wish is that we could 
market prevention as well as they market drugs. That is one of 
the things that we are working on at the Center for Substance 
Abuse Prevention.
    You are right about being concerned about that for a number 
of reasons: in terms of youth selling because, not only do they 
sell but, eventually, most of the data shows that they 
eventually get into using drugs.
    They think they are only going to start making some money, 
but they get involved in the whole drug culture. Eventually, 
the stress, the pressures, the money, and all that, they end up 
using quite often as well.
    What we are doing at the Center for Substance Abuse 
Prevention is: we recognize that it takes a coordinated, 
comprehensive, community-based approach to be able to help 
youths not to use drugs--which involves working with the whole 
community, changing the atmosphere and the environment, helping 
kids to have productive lives--in other ways that they are not 
going to want to use or not want to sell drugs.
    Effective programs that would deal with this more directly 
are going to start right in the home, very early, with having a 
strong family: where the kids understand that this is not 
within the family values and norms that they should be selling 
drugs.
    The parents monitor their children and are close enough and 
connected to their children that they know what their children 
are doing and where they are.
    Then also when you get to the junior high and high school 
level, you can start working on having the children be involved 
in positive activities so that they are involved in community 
service activities through their schools, through their 
churches.
    They start learning that there are more effective ways for 
them to make money and develop skills and competencies in this 
world. We have also been working with one of our grant 
programs. It is Project Youth Connect, which is to involve 
those youth with mentors.
    We have funded a number of grants around the country this 
last year through the High Risk Youth Grant Program to train 
mentors to work with youth to then support their communities 
through doing a number of different kinds of activities with 
youth in the community. It would also involve community service 
projects as well.
    Mr. Cummings. What is the average amount of those grants? I 
am just curious.
    Ms. Kumpfer. The average amount is around $400,000 to 
$500,000. They are funded at a pretty good size level.
    Mr. Cummings. Do you know if Maryland got one?
    Ms. Kumpfer. They were incredibly popular, I might say 
also. We had a huge number of applications for a very small 
amount of money. We only had $7 million this year. Excellent 
grants, we could not even fund, though they were very, very 
popular.
    Mr. Cummings. Thank you.
    Mr. Mica. My friend from Hawaii has questions.
    I am going to yield the floor.
    Mr. Ose [presiding]. This is the first time this junior 
member has sat in the chair.
    Mrs. Mink. Oh, you want to sit there awhile.
    Mr. Ose. I am terrified I am going to screw it up.
    Mrs. Mink. For my colleagues' benefit, we are going to have 
another hearing on the law enforcement end, where the questions 
that you are pursuing, which I am very much interested in, also 
can be pursued at that time with the law enforcement agencies. 
I have a question to Ms. Verdeyen.
    Ms. Verdeyen. Yes.
    Mrs. Mink. The prison population that you referred to in 
your testimony is basically the Federal prisons; correct?
    Ms. Verdeyen. That is correct.
    Mrs. Mink. That is a very small number when you consider 
the 1.8 million that are in our prisons throughout the country, 
local jails, State prisons, and so forth.
    Now, to what extent is the program that you described also 
in place in the State prison systems so that what you are doing 
to identify the prisoners that are drug-dependent and putting 
them into a treatment program?
    To what extent is that happening in the State prison 
populations? We are talking about 100,000 Federal prisoners, as 
compared to 1.6 million prisoners in the other systems. These 
are the individuals who are going to be released and eventually 
come back to our communities.
    If treatment in the prisons is going to make any 
difference, we have to find a program that relates to that 
population. Can you comment on that?
    Ms. Verdeyen. Our programs are available to States through 
the National Institute of Corrections. Our curriculum that we 
use--I do not have information on----
    Mrs. Mink. How do you get it out to them? Are there grants 
to States? Is there financial support? We talk about 
partnerships in the communities. Is there partnering in terms 
of what you are doing with our local prisons so that the 
practices that you find successful are translated to them? 
Perhaps we have to enlarge the program and make sure those are 
funded as well.
    Ms. Verdeyen. That information would be from the Office of 
Justice Programs. I would be happy to see that you get that 
information.
    Mrs. Mink. Meaning that they have money that they allocate 
to the States for that purpose?
    Ms. Verdeyen. Yes.
    Mrs. Mink. Do you have any idea how much that is?
    Ms. Verdeyen. No, I am sorry.
    Mr. Schecter. Mrs. Mink, there are some programs in the 
Justice Department, although not in the Bureau of Prisons areas 
that do this. For example, there is, as I mentioned earlier, 
the Drug Intervention Program, which is unfunded. It is a $100 
million request.
    That would institute system-wide drug intervention and 
treatment programs throughout all aspects of the criminal 
justice system in an area. There is also, of course, the Break 
the Cycle Program, which you may be aware of.
    There are a limited number of demonstration sites around 
the country. Again, through a similar kind of systemic approach 
to drugs in the criminal justice system.
    Mrs. Mink. Why has that remained unfunded; because the 
funds were not requested or that the Congress refused to fund 
it?
    Mr. Schecter. The funds were requested last year. I believe 
the request was $85 million. That was unfunded.
    Mrs. Mink. What about in this year's budget?
    Mr. Schecter. This year, the request is $100 million.
    Mrs. Mink. So, it is before the Appropriation Committee now 
on both sides?
    Mr. Schecter. Yes.
    Mrs. Mink. What are the prospects of getting that money? It 
would seem to me that it is a terribly important area.
    Mr. Schecter. It is certainly one of our high priorities. 
We are going to fight very hard for it, as is Attorney General 
Reno.
    Mrs. Mink. Is it a correct statement that of the 1.8 
million persons who are in the prisons that 60 percent of that 
population in some way got into prison because of their drug 
use, or drug dependency, or selling of drugs, or related in 
some way to the drug traffick? Is that a correct figure.
    Mr. Schecter. There are various figures and they are all 
pretty high. It is hard to know which one is most accurate. It 
depends upon how you define it I guess.
    Mrs. Mink. Is there a higher figure than 60 percent?
    Mr. Schecter. I am sorry?
    Mrs. Mink. Is there a higher figure than 60 percent drug 
related?
    Mr. Schecter. That is about as high as I have seen.
    Mrs. Mink. It seems to me that this population is going to 
get out. They are not going to be in prison, you know, for 
life, I do not think so. Although some of the sentences are 
pretty stiff.
    This population is going to get out, go back into the 
communities, and unless we have adequate treatment of these 
prisoners in the State system, we are just going to compound 
the problem for ourselves when they get back in.
    So, it seems to me this has to be a priority in terms of 
the demand situation.
    Mr. Schecter. We agree 110 percent.
    Let me cite one other program that I neglected to mention; 
the Residential Substance Abuse Treatment Program; $62 million 
at the Justice Department to support Residential Treatment 
Programs in State prisons.
    Mrs. Mink. I just have one other area that we were talking 
about earlier. That is the medicinal use of marijuana. It is a 
very controversial subject. I differ with my colleagues on the 
majority on that subject.
    It, nevertheless, I think, requires some scrutiny in terms 
of how we deal with the subject area. You have made the 
distinction that the Institute of Medicine did not indicate 
that smoked marijuana had any particular medicinal value. That 
the emphasis is going to be on the chemical compounding of it. 
Now, is there some way that, that kind of information can be 
extracted and formulated in a way that the people will accept 
that distinction?
    Are we talking about a general topic of marijuana being 
something that has value and therefore completely compromise 
the efforts that you are making to indicate that it is not a 
suitable item for anyone, not only the youth, to be using?
    Mr. Schecter. I think one of the real strengths of the IOM 
report is that they took great pains to distinguish between the 
two.
    Mrs. Mink. Could you distinguish the two for this hearing 
so that it would be as clear as possible, given the limitations 
of language?
    Mr. Schecter. Absolutely. Again, what the IOM is 
recommending is that there be further research into the various 
cannabinoid compounds contained within the raw marijuana plant.
    There are a great many compounds. They are very complex. 
Most of them are not very well researched yet, but there is 
promising evidence, including some very new research showing 
how cannabinoids affect the brain, that suggest that there may 
be some potential uses.
    One of the compounds has already been developed for 
commercial use. It is called marinol. It was developed in the 
1980's. The IOM is suggesting there may be some other 
potentially useful compounds as well. As you have said, with 
regard to smoked marijuana, the raw plant that you roll up and 
light, their finding is: little to no medical potential.
    Mrs. Mink. In dealing with this subject matter, is it 
necessary to go back to the marijuana plant for the manufacture 
and creation of the compounds that they are dealing with?
    Is it a chemical compound that can be found distinct in the 
chemical laboratories without having to make a reference to 
marijuana? That is really my question.
    Mr. Schecter. These compounds can potentially be 
synthesized. This is getting beyond my level of scientific 
knowledge.
    Mrs. Mink. I read that explanation in a newspaper. It 
seemed perfectly clear, but nobody has said it today. So, I am 
somewhat mystified as to whether that is an accurate 
distinction in that report. If so, why that has not been 
utilized by any of you in clarifying the subject.
    Mr. Millstein. Mrs. Mink, if I can answer your question.
    Mrs. Mink. Yes.
    Mr. Millstein. The substance drenavenol marketed as marinol 
is a synthetic substance. It is the psychoactive ingredient of 
marijuana, zeltinyne tetrahydrocanavanol. It is a synthetic 
substance, not made from the plant material.
    Mrs. Mink. So, why are we in this discussion at all when we 
are talking about drug abuse, then, if it is like any other 
prescription; something that is synthesized chemically and sold 
as a prescriptive drug?
    Why do we have to relate it in any shape or form to clarify 
as to whether there is any value to marijuana consumption?
    Mr. Schecter. My understanding is that these compounds, of 
course, exist naturally in the marijuana plant. So, that is 
where you would first attempt to isolate them.
    Mrs. Mink. But they are non-existent in any other 
circumstance.
    Mr. Schecter. Apparently, they are quite rare otherwise. I 
think there are possibly some other plants that may exist.
    Mrs. Mink. So, that you cannot get out of the discussion 
then.
    Mr. Schecter. Once you do isolate them from the raw plant, 
then it is possible to synthesize it in the laboratory.
    Mrs. Mink. But you need to have the plant.
    Mr. Schecter. Initially.
    Mrs. Mink. ``Initially'' meaning what? In every instance?
    Mr. Schecter. Initially to identify and isolate what the 
compound is.
    Mrs. Mink. Only for research purposes, but for the 
manufacturing as well?
    Mr. Schecter. For manufacturing, you do not need the plant. 
You can manufacture it.
    Mrs. Mink. It can be synthesized in a laboratory. Is that 
correct?
    Mr. Millstein. The fact is that there are androgenous, that 
is within the body itself, cavanoids and canabidials. There is, 
I guess in theory at least, the possibility that there can be a 
derivation.
    Mrs. Mink. Do you mean taking my body?
    Mr. Millstein. In theory one could say that because----
    Mrs. Mink. Well, this is far too complicated for me.
    I yield the floor.
    Mr. Ose. I heard that last exchange. In California, we have 
recently had the opportunity to vote on the use of marijuana 
for medicinal purposes.
    What I failed to understand, particularly given my 
colleagues' questions, is that if we have the ability to 
synthesize marinol, for instance, and we have not yet been able 
to identify these other compounds that might come from smoking 
marijuana, why are we spending $1 million to study the use of 
smoked marijuana?
    I do not grasp this. I want to come back to that point. I 
know Mr. Mica has spent some time on it. I am hopeful someone 
can explain it to me. My concerns are pretty straightforward.
    There are enough clinical studies to establish that smoked 
marijuana lowers someone's immune system. It causes DNA, lung, 
heart, and epidemiological damage, that is according to some 
European studies.
    It is a Schedule I Narcotic, according to U.S. Code. It has 
psychologically damaging affects. I mean, I know friends who 
have used it, former friends I must say. I do not have to have 
a doctor tell me about it.
    Somebody needs to explain this to me.
    Mr. Schecter. Common sense would suggest that you are 
absolutely right. However, we have an environment in which a 
number of States, including your own, were embarking on these 
public referenda where marijuana was the subject of intense 
debate about its medicinal properties.
    Our view was that what we needed was a rigorous, up-to-
date, state-of-the-art, unimpeachable review of exactly what 
the science said. As you say, there are a number of studies out 
there in various places, in various journals.
    Different people will cite different studies. What we did 
not have was somebody that actually brought them all together, 
assessed them, peer-reviewed them, and determined exactly what 
the bottom line was, and reported back to the American public. 
That is what the IOM has done.
    Mr. Ose. Let me back-up a minute. I have a hard time not 
being argumentative on this. So, be patient with me, if you 
would. It is my understanding that the Food and Drug 
Administration has that role.
    What I am trying to understand is why are we branching out 
into ONDCP with that same role of studying the use of 
marijuana?
    Mr. Schecter. Again, we do not normally do this kind of 
thing. We got into this simply because this was becoming a 
national public policy debate. We did not see anybody else out 
there convening a blue ribbon group of scientists to review all 
of the existing research.
    So, we thought that there was a need. It had not been done 
for a number of years. There was a fair amount of recent 
research that was worth looking at, including some very 
important research that Mr. Millstein alluded to on the natural 
cannabinoid in the brain and how cannabinoids affect the 
isolation of receptors in the brain.
    So, somebody needed to take a look at that. It simply was 
not being done.
    Mr. Ose. Let me go on to another question. If I understand 
correctly, ONDCP believes there are legal restrictions to 
developing and using advertisements that debunk the notion of 
marijuana as medicine. Is that correct?
    Mr. Schecter. Well, the advertisements produced under our 
ad campaign do not directly address the issue of marijuana as 
medicine. What they address is the use of marijuana by kids 
because that is the target of the campaign.
    Clearly, they communicate the idea that marijuana is a 
dangerous, harmful substance. That is the basic attitude that 
we wanted to instill.
    Mr. Ose. Does the ONDCP believe that there are legal 
impediments to developing and using advertisements that debunk 
the notion of marijuana as medicine?
    Mr. Schecter. No. I do not think there are legal 
impediments. I think there are statutory restrictions on using 
the campaign for a partisan political purpose. The problem is 
when you get into marijuana as medicine.
    There are these various referenda in the States. They start 
getting into the area of public policy issues. What we wanted 
to target this campaign on was reducing teen drug use. So, 
everything in the campaign is focused on achieving that end.
    Mr. Ose. I yield.
    Mrs. Mink. Will the gentleman yield?
    Mr. Ose. Yes.
    Mrs. Mink. In the strategy book that I read, the executive 
summary; I have not really gone through the huge volumes. 
Repeatedly it suggests that one of the reasons why the whole 
issue of marijuana is so important is that, that is the 
beginning of the young person's experiment into drug use. Once 
they get into marijuana, it is quite likely that they will 
expand into other more difficult drugs like heroin, cocaine, 
and methamphetamine.
    Therefore, in structuring an approach that will nip this 
potential growth of drug use among young people it is very 
important to hit the marijuana issue. Is that correct? Is my 
reading of the report accurate?
    Mr. Schecter. Absolutely. In fact, the IOM points out in 
their report that the use of marijuana usually precedes the use 
of any other illicit drug.
    Mrs. Mink. So, if that is true, and my reading is accurate 
then, I have a followup question. What impact will the 
validation of marijuana as a medicine have upon your overall 
media efforts to try to get young people to stay off of it?
    Mr. Schecter. This was one of the things that has always 
concerned us about these ballot referenda and one of the 
reasons why we conducted this study. Indeed, the study now does 
say smoked marijuana is not beneficial.
    Mrs. Mink. Suppose your clinical studies validate it as a 
useful relief from pain in terminal illnesses, no matter how it 
is structured?
    Supposing it validates that, what impact will that have on 
our ability as a country to take hold of this whole issue of 
marijuana and get it under a controlled situation for our young 
people?
    Mr. Schecter. We have long been concerned about the message 
that the whole medical marijuana movement, which is in many 
respects a thinly disguised legalization of drug movement is 
sending to our young people. There is no question about that.
    Mrs. Mink. Thank you.
    Mr. Ose. You are welcome.
    Mrs. Mink. The microphone is yours.
    Mr. Ose. Mr. Schecter, going back to the advertising issue 
on the use of marijuana and the comment about whether or not 
there are legal impediments to targeting advertisements to 
debunk the notion of marijuana as medicine.
    If there are no legal impediments to that, and we have 
States that are considering referenda that would authorize 
such, why would we not target our advertisements in the 
immediate timeframe into those States. If we could, I would 
like to have you all come back to California and target 
California again.
    Mr. Schecter. I wondered if, for the sake of wondering, 
whether if we were to do that, whether the other side on that 
public policy referenda would then demand equal time from the 
media.
    Mr. Ose. They should come and ask Congress for funding.
    Mr. Schecter. Again, I think the main reason for not doing 
that is that it is not central to the campaign's primary 
objectives. If you go back and take a look at the strategic 
plan for the media campaign, it states very clearly what the 
goals are.
    What we wanted to avoid was having this campaign and the 
funds appropriated for it lose focus. There are various 
purposes that may be important and useful, but not central to 
the campaign.
    The central purpose of the campaign, again, is to reduce 
rates of teen drug use. The campaign goes about that in the 
most direct way possible--in the ways in which research tells 
us are most likely to be effective.
    Mr. Ose. How much clearer a message could one send than to 
go into States where they are actually considering the question 
of marijuana's medicine and make the case that it is not?
    Mr. Schecter. My own view is that if you have effective ads 
out there showing the negative impact of marijuana on kids--and 
if I were a voter in that State and I saw those ads day in and 
day out--I think I would have a very different point of view 
when somebody came to me and suggested marijuana is medicine.
    So, I think there is a connection. Again, what we want to 
do is keep the campaign focused on its initial goal: to reduce 
teen drug use.
    Mr. Ose. Does ONDCP have the authority to concentrate ads 
in the States that are having referendums?
    Mr. Schecter. I would have to talk to our lawyers to take a 
look at that to see looking at State laws, looking at the laws 
governing the campaign itself, the authorizing statute. I would 
have to get back to you on that. My impression is that would be 
a problematic exercise.
    Mr. Ose. What does ``problematic'' mean?
    Mr. Schecter. Meaning not necessarily legal, but I am not 
sure. Let me check on that and get back to you, sir.
    Mr. Ose. We are going to leave the record open for a couple 
of weeks. So, we will take that feedback.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3121.050
    
    [GRAPHIC] [TIFF OMITTED] T3121.051
    
    Mr. Ose. Let me go back for a minute. I want to make sure I 
understand on the smoked marijuana question whether or not we 
are doing clinical trials on smoked marijuana. Are we or are we 
not doing clinical trials on smoked marijuana for medical 
purposes?
    Mr. Schecter. I am not aware of any plans in HHS to do 
that. In fact, they indicated yesterday that they probably 
would not go in that direction.
    Mr. Millstein. The National Institutes of Health is 
supporting one study, a clinical study, looking at the affects 
of smoked marijuana.
    It is a phase I safety study supported by five NIH 
Institutes, with Dr. Donald Abrams of the University of 
California at San Francisco; looking at the affects of smoked 
marijuana as it interacts with AIDS medications and protease 
inhibitors.
    Mr. Ose. I am not a clinical diagnostician or anything like 
that, but I do read some. From what I read of smoked marijuana, 
it is a suppressant to the body's natural immune systems. Am I 
correct in my understanding?
    Mr. Millstein. Yes.
    Mr. Ose. What would be the purpose of a study that 
introduces a suppressant to immune systems in conjunction with 
the protease inhibitors that might be an enhancer? Are we 
talking about nullification of impact?
    Mr. Millstein. There are a number of periods with marijuana 
in the smoked form; not only including the one you mentioned, 
Mr. Chairman, but also pulmonary effects. The study is looking 
at, as I said it is a phase I safety study.
    If it turns out there is no safety, this would be a message 
that would go back to other people in your State about the 
negative effects of smoked marijuana.
    Mr. Ose. There is information about the adverse impact of 
marijuana, as you say, for pulmonary reasons?
    Mr. Millstein. Yes.
    Mr. Ose. Well, if we know that, why are we studying it 
again?
    Mr. Millstein. The fact is that many people are using 
marijuana because of, not scientific evidence, but anecdotal 
reports that it is effective.
    Dr. Abrams is trying to show by having comparisons of 
different subjects using and not using; some using marijuana; 
some using the synthetic product, marinol, the zeltinyne 
tetrahydrocanavanol.
    That is the one most psychoactive ingredient of marijuana 
and a placebo group to be able to make comparisons of the 
effects of all three groups.
    Mr. Ose. I must say I do not understand why we have to do a 
study about something we already seem to know about.
    Mr. Millstein. A lot of people do not believe what science 
says. They do not believe Government. Since I have decided that 
nothing is helping them and this will be actual activity, 
scientifically, to say what are the results in each group.
    Mr. Ose. Are we advertising the results of the previous 
study that established the connection between adverse pulmonary 
impact and the use of marijuana as much as we are these other 
things within the ONDCP's advertisements? Are we relying on 
anecdotal transfer of the information?
    Mr. Millstein. I do not know if that specific information 
is released in the ONDCP. In NIDA's own materials, including 
those targeted to middle school students, and in our brochures, 
Marijuana Affects Appearance and Marijuana Affects Routines, we 
speak about marijuana and its negative effects.
    We have people who are saying that nothing helps them. That 
they are terminally ill. That they do not care about certain 
affects on their body because of the alternatives that they are 
facing. This will be the first ever scientific study that will 
show differences. This is in an AIDS population.
    Mr. Ose. I have one more question on the marijuana aspects 
of this. Mr. Cummings, do you have a question?
    Mr. Cummings. Yes.
    Mr. Ose. I will gladly yield to you.
    Mr. Cummings. Thank you very much.
    Mrs. Mink. Your time is up.
    Mr. Ose. My time is up?
    Mrs. Mink. Yes.
    Mr. Ose. OK.
    Mr. Cummings. I was just looking at this document of 
grants. First of all, thank you. It is nice to know that 
Maryland is getting money.
    Mrs. Mink. How much?
    Mr. Cummings. Quite a bit. I am just curious. When I look 
at these grants, I am trying to figure out if they have 
proposals and they present them to you? Is that it? They do not 
look like something that you sort of put an RFP out for. Is 
that how it goes?
    Dr. Autry. There basically are two types of grants. One are 
what are called Block Grants or Formula Grants. These are given 
on a capitation basis to the States, both in the mental health 
and substance abuse, treatment, and prevention area.
    In the substance abuse, treatment, and prevention area, 
that money goes directly to the State, the Single State 
Authority, working with the Governor who then dispenses that; 
80 percent for treatment, 20 percent for prevention.
    In addition to the Block Grants, there are what are called 
Discretionary Grant Programs which are competitively awarded 
where we solicit ideas in certain areas based on input from the 
field, put out what are called GFAs or Guidance For Applicants, 
who apply for the funds. They are competitively reviewed and 
then hopefully awarded. Those are the two basic types of grant 
programs.
    Mr. Cummings. I mean are there some goals that you have?
    Dr. Autry. You were not here at the opening statement. One 
of the things that I said is that every time we have a program 
that we start, we have not only specific evaluation outcome and 
process goals for the individual projects that are funded in 
these programs, but also for the overall program as a whole.
    So, we look at how effective it was, say, a new substance 
treatment intervention program, as a case in point.
    Mr. Cummings. OK. Mr. Schecter, Chairman Mica, when he was 
here, was talking about his little focus group; talking about 
the ads. It is interesting. When General McCaffrey first 
instituted this program, he came to Baltimore.
    He spoke at a high school which is located in the inner 
city. Most of these kids are very street-wise. Most of them 
have either had a relative, or they know of someone who was 
close to them, who have died indirectly or directly because of 
drugs.
    So, this is a pretty street-wise group. One of the 
interesting things is that they played several of the ads. The 
one which seemed to really hit them hard was the frying pan ad, 
where the woman takes an egg and she is splattering stuff all 
over the place. Are you familiar?
    Mr. Schecter. Yes. In fact, that is a heroin ad.
    Mr. Cummings. Is it heroin?
    Mr. Schecter. Yes.
    Mr. Cummings. I am just wondering, how do you all rate 
those ads? It was so interesting. When I talk to kids about 
these ads, out of all of the ads that they see on television, I 
will bet you that one rates about 95 percent.
    That is the one they seem to remember and say has some 
impact on them. There are a lot of them. I mean I have seen so 
many of them. I was just wondering how you rate them.
    Mr. Schecter. Mr. Cummings I have to share with you that 
``frying pan'' is my personal favorite among the ads. But we do 
not want to run this campaign based on what ads you, I, or 
anybody else thinks are most effective.
    One of the unusual things about this campaign is that we 
have set-up a very rigorous ad testing process that involves 
focus groups put together by people whose business it is to 
test ads much the way General Motors would before launching a 
$500 million ad campaign.
    They do not want to spend money on ads if they are not 
going to work. So, we are doing the same thing. We want to make 
sure that any ad that is aired, before it will air as a part of 
this campaign, has undergone a rigorous ad testing process. It 
has to be shown to be effective with its particular target 
audience.
    Mr. Cummings. About how many ads do you have out there? Do 
you have any idea?
    Mr. Schecter. I am not sure what the number is. Right now 
it is probably 50 or 60 different ads.
    Mr. Cummings. I guess what I am trying to get to is as I 
understood the program, they were trying to figure out, they 
were doing little testing and they were trying to figure out in 
the first quarter or whatever, what kind of effect they were 
having.
    I am just wondering, do you then pick like the top 10, or 
top 15, or something like that. I mean how does that work or do 
you just continue. I am going to what you just said. I agree 
with you.
    I mean we, in Government, I think on both sides of the 
aisle want taxpayers' money to be spent effectively and cost 
efficiently. So, I am just wondering do you take your top 10 or 
your 15, or do you just keep--staff gave you something.
    Do you keep just running ads that do not even--I guess what 
I am thinking about is the way they do the television ratings. 
If a show does not do well----
    Mr. Schecter. Either it is effective or it is not 
effective.
    Mr. Cummings. Right.
    Mr. Schecter. That is really the threshold. If it is not 
effective, it is not used anywhere in our campaign. In fact, 
when we subjected the first round of available ads produced 
through the Partnership For Drug Free America, and they are the 
best in the business in this kind of thing, what we found was 
that some of the ads did not work.
    You or I may not have guessed that. It may have seemed to 
you or I like a great ad, but this was an ad targeted to a 10 
or 12 year old kid. It is not important whether you or I think 
it is a good ad.
    Does it achieve the desired effect with that young person? 
So, some of the ads were discarded. I would also mention that, 
particularly now that we are starting to approach phase III 
which will begin this summer, we are going to have much more 
targeted and differentiated kinds of ads.
    We are developing ads in 11 different foreign languages; 
ads targeted to all sorts of different ethnic groups so that no 
matter what the community is, we will have tested ads that will 
be effective with that particular group.
    Mr. Cummings. One last question. It is so interesting. I 
notice that a lot of times they will run two or three of these 
ads right in a row. Why is that?
    Maybe this is not a national thing. In Maryland, I have 
noticed that a lot of times, they will run them and they will 
run them right behind each other. I thought maybe that was one 
of your theories of effectiveness or something.
    Mr. Schecter. No. I do not think there is any particular 
purpose there. Sometimes what that means is that you have got a 
paid ad and then maybe a pro bono matching ad right behind it.
    So, the network of the local station will simply just tag 
those together. I have seen that done, incidently, for other 
product ads as well, not just our campaign.
    Mr. Cummings. Thank you.
    Mr. Ose. Mrs. Mink.
    Mrs. Mink. So, which is the most effective ad you have 
produced?
    Mr. Schecter. I do not think I could answer that. Again, it 
is not a ranking. It is a threshold of effectiveness that must 
be met.
    Mrs. Mink. Does the fried egg make it?
    Mr. Schecter. Oh yes, absolutely. That is why you see it. 
As I said, it is my own personal sentimental favorite.
    Mrs. Mink. Thank you.
    Mr. Ose. One last observation. I am not all that skilled at 
the legislation that this subcommittee has jurisdiction over.
    I would wager that the legislation that this subcommittee 
did authorize does not include a restriction on targeting of 
ads into specific areas in such a way as to off-set what might 
be a concentration of pro-marijuana use in a political 
campaign.
    I just have a hint or an inkling of that. The reason I keep 
coming back to this is No. 1, I have been the beneficiary of 
some very creative advertising and the subject of some other 
creative advertising. I know it works.
    While I am not in any way, shape or form suggesting that 
this gentleman should be noted for anything else, but Pat 
Buchanan said, you know, when you hear the gun fire, do not 
call headquarters. Mount up and ride to the sound of the gun 
fire.
    We have five States right now, if not more who are 
considering referenda to legalize the use of marijuana for 
medicinal purposes, if not otherwise. I do not see any reason 
not to go and engage in that debate.
    I thank my colleagues. You have been very patient to this 
rookie.
    Mr. Cummings. I know a lot about marijuana, Mr. Chairman. I 
have heard more about marijuana today than I have heard in 
years, Mr. Chairman.
    Mr. Ose. I thank the witnesses.
    We would like to leave the record open for 2 weeks for 
members' submission of questions.
    I look forward to future briefings.
    We are adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T3121.052

[GRAPHIC] [TIFF OMITTED] T3121.053

[GRAPHIC] [TIFF OMITTED] T3121.054

[GRAPHIC] [TIFF OMITTED] T3121.055

[GRAPHIC] [TIFF OMITTED] T3121.056

[GRAPHIC] [TIFF OMITTED] T3121.057

[GRAPHIC] [TIFF OMITTED] T3121.058

[GRAPHIC] [TIFF OMITTED] T3121.059

[GRAPHIC] [TIFF OMITTED] T3121.060

[GRAPHIC] [TIFF OMITTED] T3121.061

[GRAPHIC] [TIFF OMITTED] T3121.062

[GRAPHIC] [TIFF OMITTED] T3121.063

[GRAPHIC] [TIFF OMITTED] T3121.064

[GRAPHIC] [TIFF OMITTED] T3121.065

                                   - 

</pre></body></html>
